Report No. D-2008-038         December 21, 2007




    The Army's Procurement and Conditional
    Acceptance of Medium Tactical Vehicles
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

DCMA                  Defense Contract Management Agency
FAR                   Federal Acquisition Regulation
FMTV                  Family of Medium Tactical Vehicles
LMTV                  Light-Medium Tactical Vehicles
MTV                   Medium Tactical Vehicles
                               INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGINIA 22202-4704




                                                                        December 21, 2007

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY
               DIRECTOR, DEFENSE CONTRACT MANAGEMENT
                 AGENCY

SUBJECT: Report on the Army's Procurement and Conditional Acceptance of Medium
         Tactical Vehicles (RepOlt No. D-2008-038)


        We are providing this report for review and conunent. In preparing the final
report, we considered comments on the draft report from the Deputy Program Executive
Officer for Combat Support and Combat Service Support; the Deputy Chief of Staff,
TACOM Life Cycle Management Conunand; and the Acting Director, Defense Contract
Management Agency.

       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Deputy Program Executive Officer for Combat Support and Combat Service Support
comments were partially responsive. Accordingly, we request that the Program Executive
Officer for Combat SUPPOlt and Combat Service Support provide additional comments
on Recommendation B.l. by January 22,2008.

        If possible, please send management comments in elech'onic f0l111at (Adobe
Acrobat file only) to AudACM@dodig.mil. Copies of the management conU11ents must
contain the actual signature of the auth0l1zing official. We cmillot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
elech'onically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. John E. Meling at (703) 604-9091 (DSN 664-9091) or Mr. Kevin W. Klein at
(703) 604-9032 (DSN 664-9032). See Appendix D for the report distribution. The team
members are listed inside the back cover.

                               By direction of the Deputy Inspector General for Auditing:




                                         ~e~:~
                                  Deputy Assistant Inspector General
                                 Acquisition and Contract Management
Department of Defense Office of Inspector General
Report No. D-2008-038                                                 December 21, 2007

   (Project No. D2006-D000AE-0225.000)

       The Army’s Procurement and Conditional Acceptance of
                    Medium Tactical Vehicles
                              Executive Summary

Who Should Read This Report and Why? Contracting officers and contract
administrators should read this report because it discusses the Army’s practices for
conditional acceptance and first inspection acceptance of the vehicles.

Background. The Family of Medium Tactical Vehicles (FMTV) consists of
families of Light-Medium Tactical Vehicles, which are 2½-ton trucks, and Medium
Tactical Vehicles, which are 5-ton trucks. The FMTV includes complementary
trailers that supplement the vehicle fleet. The vehicles have common components
and various body styles for special combat, combat support, and combat service
support organizational missions. The approved Presidential Budget for FYs 2005
and 2006 provided approximately $956 million to procure 7,071 FMTVs. In
addition, Congress provided another $797 million to the program as part of the
Emergency Supplemental Appropriations Acts in FYs 2005 and 2006. The
supplemental budgets for FYs 2005 and 2006 provided funding to procure an
additional 3,970 FMTVs.

Results. The Army was appropriately using supplemental funds that Congress
provided to the FMTV program office in support of the Global War on Terrorism.
However, the FMTV program office was not adequately protecting the
Government’s interest because it conditionally accepted FMTVs. Further, the
FMTV contractor, Stewart and Stevenson Tactical Vehicle Systems, Limited
Partnership, was not meeting contract requirements for acceptance of vehicles at first
Government inspection. The following two findings discuss those issues.

       •   As was the case more than 11 years ago, the procuring contracting officer
           for the FMTV, after consulting with the Project Manager Tactical
           Vehicles, authorized the administrative contracting officer to
           conditionally accept incomplete vehicles and paid the contractor up to
           100 percent of the contract price for some of the vehicles. The
           conditional acceptance of vehicles resulted in the Army prematurely
           paying the FMTV contractor more than $3.8 million for vehicles. The
           conditional acceptance of vehicles also unnecessarily increased the Army
           cost risk. When authorizing the conditional acceptance of vehicles, the
           procuring contracting officer should limit payment to the contractor as
           stated in the contract to protect the Government’s interest. The procuring
           contracting officer should also limit vehicle conditional acceptance to
           reasons of economy and urgency when those conditions exist (finding A).
           (This is a repeat finding that was discussed in DoD Inspector General
           Report No. 96-005, “Quick-Reaction Audit Report on Conditional
           Acceptance of Medium Tactical Vehicles,” October 12, 1995.)

       •   The FMTV contractor submitted vehicles for Government acceptance
           that did not meet first inspection acceptance requirements in the contract.
           Specifically, Government acceptance of FMTV lots at first inspection
           decreased from 86 percent in January 2004 to 21 percent in January 2007.
           As a result, the Defense Contract Management Agency (DCMA) incurred
           additional reinspection costs to verify that vehicles resubmitted for
           inspection met contract specifications. The Director, Defense Contract
           Management Agency needs to continue charging the contractor for
           Government reinspection costs, as he began to do during the audit. Also,
           the Program Executive Officer for Combat Support and Combat Service
           Support should slow the contractor’s daily vehicle production rate until
           the contractor can meet vehicle first acceptance inspection requirements
           in the contract (finding B).

The Army’s internal controls for the FMTV contract were not adequate. We
identified material control weaknesses in the process used by the procuring
contracting officer to conditionally accept incomplete vehicles and pay the
contractor up to 100 percent of the contract price for some of the vehicles.

Management Comments and Audit Response. The Deputy Chief of Staff,
TACOM Life Cycle Management Command concurred with the recommendations to
limit payment to the contractor as required in the contract to protect the
Government’s interest and limit vehicle conditional acceptance to reasons of
economy and urgency when those conditions exist. The Deputy Chief of Staff
planned to implement the recommendations by September 30, 2007. The comments
were responsive and no further comments are needed.

The Deputy Program Executive Officer for Combat Support and Combat Service
Support, responding for the Program Executive Officer for Combat Support and
Combat Service Support, nonconcurred with the recommendation to slow the
contractor’s daily vehicle production rate until the contractor can meet vehicle first
acceptance inspection requirements in the contract. The Deputy stated that the first
pass yield is one of many internal metrics used by DCMA Sealy to assist them in
ensuring that the quality of the trucks presented to the Government for acceptance is
maintained. He stated that the contractor continues to meet its monthly and yearly
contractual truck delivery requirements to the Government. Additionally, the
Deputy stated that vehicles produced and fielded are meeting or exceeding user
requirements as evidenced by FMTV’s operational readiness rate of over
93.5 percent. He stated that decreasing FMTV production would not be in the best
interest of our Army or its soldiers, and any delay in fielding those vehicles will
directly and unnecessarily place soldiers at risk. The Deputy Program Executive
Officer’s comments did not address the issue of the contractor not being able to
provide vehicles for inspection that meet contract requirements. DCMA has issued
over 285 corrective action requests based on contractor quality issues. Further,
while contractor monthly deliveries have met total vehicle quantities, the contractor
did not deliver the vehicle variant quantities prescribed in the contract. Instead, the
procuring contracting officer allowed the contractor to substitute different FMTV
variants to meet overall monthly quantity requirements. Temporarily decreasing
daily vehicle production requirements would provide the contractor an opportunity
and incentive to correct production problems and increase its capability to present
vehicles that conform to contract specifications at first inspection and enable the
Army to immediately ship vehicles to the Army units. According to the Deputy
Chief of Staff, G-8, only 445, or 10 percent, of the 4,354 vehicles scheduled to be

                                           ii
delivered by September 2008 are going to Southwest Asia. Therefore, temporarily
reducing the daily production rate should not affect deliveries to Southwest Asia
because even with reduced daily vehicle production requirements, the FMTV
contractor will be able to timely produce the 445 vehicles planned for shipment to
Southwest Asia. The Army plans to use the remaining vehicles to support the
Army’s modularity program and backfill for vehicles already shipped to Southwest
Asia.

The Acting Director, Defense Contract Management Agency partially concurred
with the recommendation to continue charging the contractor for Government
reinspection costs, stating that billing for reinspection costs is an option under
Federal Acquisition Regulation 52.246-2. The Acting Director stated that DCMA
plans to continue charging reinspection costs until the contractor’s first pass yield
rate exceeds 80 percent. The Acting Director’s comments meet the intent of the
recommendation and no further comments are needed. (See the Finding section of
the report for a discussion of the management comments and the Management
Comments section of the report for the complete text of the comments.)

We request that the Program Executive Officer for Combat Support and Combat
Service Support reconsider his position on the recommendation and comment on the
final report by January 22, 2008.




                                          iii
Table of Contents

Executive Summary                                                       i

Background                                                              1

Objectives                                                              3

Review of Internal Controls                                             4

Findings
     A. Conditional Acceptance of Family of Medium Tactical Vehicles    6
     B. First Inspection Acceptance of Family of Medium Tactical
          Vehicles                                                     15

Appendixes
     A. Scope and Methodology                                          22
         Prior Coverage                                                23
     B. Glossary                                                       24
     C. Management Comments on the Report and Audit Response           28
     D. Report Distribution                                            35

Management Comments
     Defense Contract Management Agency                                37
     Department of the Army (Program Executive Office for Combat
        Support and Combat Service Support)                            46
     Department of the Army (TACOM Life Cycle Management
        Command)                                                       48
Source: Army Evaluation Center Continuous Improvement Briefing



Family of Medium Tactical Vehicles Cargo Variant
Background
           This report is the first of two reports on the overall management of the
           Family of Medium Tactical Vehicles (FMTV). This report addresses the
           conditional acceptance and the first inspection acceptance of FMTVs. The
           second report will address armor requirements for the FMTV program. The
           FMTV is a family of vehicles that operates throughout the theater as
           multipurpose transportation vehicles for combat, combat support, and combat
           service support units. The vehicles operate worldwide on primary and
           secondary roads, trails, and cross-country terrains.

           The FMTV program is a major Defense acquisition program that comes
           under the management oversight of the Program Executive Officer for
           Combat Support and Combat Service Support at the TACOM Life Cycle
           Management Command.1 The Program Executive Officer’s mission is to
           develop, acquire, field, and sustain the soldier and ground systems for the
           warfighter by integrating effective and timely acquisition, logistics, and
           cutting-edge technology. The Project Manager Tactical Vehicles is
           responsible for managing the FMTV program and reports to the Program
           Executive Officer. The Director, TACOM Life Cycle Management
           Command Acquisition Center is responsible for acquisition support and
           contracting, and oversees the procuring contracting officers. The Army
           Acquisition Executive is the milestone decision authority for the program.
           Research, development, test, and evaluation and procurement funds for the
           FMTV program total approximately $21 billion to acquire 83,185 vehicles by
           FY 2022. The program entered the production phase of the acquisition
           process in 1995.

           FMTV Variants. The FMTV program consists of Light-Medium Tactical
           Vehicles (LMTV), which are 2½-ton trucks, and Medium Tactical Vehicles
           (MTV), which are 5-ton trucks. The FMTV program also includes
           complementary trailers that supplement the vehicle fleet. The vehicles have
           component commonality and various body styles for special combat, combat
           support, and combat service support organizational missions. The LMTV
           and MTV families consist of vehicle variants for the following capabilities.

                   •   Cargo. The cargo truck performs local and line-haul missions and
                       troop transport for LMTV and MTV variants.

                   •   Van. The van is a shop van mounted on the LMTV chassis. The
                       Army has also developed an MTV expansible van.




1
    Referred to in previous DoD Inspector General reports as the Tank-automotive and Armaments
    Command.



                                                  1
                    •   Tractor. The truck tractor performs line-haul missions and is
                        compatible with all semi-trailers that the M931 and M932 truck
                        tractors2 tow.

                    •   Dump. The dump truck is mounted on the MTV chassis for the
                        mission of hauling and dumping up to 5 cubic yards of material in
                        support of engineer units. The Army is developing a 10-ton dump
                        truck.

                    •   Load Handling System. The load handling system is mounted on
                        the MTV chassis and is capable of self-load and off-load.

                    •   Wrecker. The MTV wrecker truck is capable of multipurpose
                        operations by a single operator using a hydraulic crane and winch.
                        Operations include recovery, removal, and installation of power
                        packs; lift and towing; and material handling.

                    •   Cargo Trailers. The cargo trailers have the same payload capacity
                        as the companion truck.

           Procurement History of FMTV. In October 1991, the Army milestone
           decision authority authorized the Project Manager Tactical Vehicles to award
           Stewart and Stevenson Tactical Vehicle Systems, Limited Partnership3 a
           5-year production contract to produce 11,197 FMTVs for $1.4 billion. The
           milestone decision authority authorized full-rate production in August 1995,
           and, according to the program office, the October 1991 contract was
           restructured to cover the fifth year of vehicle production with FY 1996, 1997,
           and 1998 funding. In July 1997, the Army also issued a separate, negotiated
           requirements contract for 148 vehicles for U.S. and foreign military sales
           customers. In June 1998, the Army issued an additional contract worth
           $9.2 million for test vehicles. In October 1998, the Army noncompetitively
           awarded the contractor a 4-year production contract to produce
           approximately 5,390 trucks and 1,040 trailers for $2.1 billion and an option
           for the Army to purchase an additional 5,800 trucks or trailers in a fifth
           production year.
           In FY 2001, the Army competed the follow-on procurement of medium
           tactical vehicles, and Stewart and Stevenson Tactical Vehicle Systems,
           Limited Partnership won the competition. In April 2003, the Army awarded
           the contractor a 5-year, $4.1 billion production contract for 11,011 trucks and
           trailers. The contract also included an option for the Army to purchase an
           additional 9,439 trucks or trailers. The approved Presidential Budget for FYs
           2005 and 2006 provided approximately $956 million in funds to procure
           7,071 trucks. Further, in 2006, the FMTV program office received a military
           interdepartmental purchase request from the Army National Guard Readiness
           Center for $315 million to procure 2,358 vehicles on the same production
           contract.


2
    The M931 and M932 are the predecessor tractor vehicles to the FMTV tractor vehicle.
3
    Although on July 31, 2007, BAE Systems bought out Armor Holdings, Inc., which bought Stewart
    and Stevenson Services, Inc., on May 25, 2006, this report will refer to the contractor as Stewart
    and Stevenson Tactical Vehicle Systems, Limited Partnership.



                                                    2
    FMTV Supplemental Funding. In the FYs 2005 and 2006 Emergency
    Supplemental Appropriations Acts, Congress provided the FMTV program
    office with an additional $797 million to procure 3,970 FMTVs for the
    replacement of vehicles lost in waging the Global War on Terrorism and for
    Army modularity program requirements. The procuring contracting officer
    modified the April 2003 contract to procure the 3,970 FMTVs.

    Army Modularity’s Program. The Army’s modularity program
    reorganizes and maximizes force effectiveness by structuring into a brigade-
    based force with three primary goals.

           •   Increase the number of available brigade combat teams to meet
               operational commitments while maintaining combat effectiveness
               that is equal to or better than that of current divisional brigade
               combat teams.

           •   Create combat and support formations of common organizational
               designs that can be tailored to meet the varied demands of the
               regional combatant commanders, thereby reducing joint planning
               and execution complexities.

           •   Redesign brigades to perform as integral parts of the Joint Force
               to make them more capable across the range of military
               operations and able to benefit from support from other services
               and contribute more to other service partners.

    Use of Global War on Terrorism Emergency Supplemental Funds. As
    authorized, the Army used emergency supplemental funding that Congress
    provided to support the Global War on Terrorism. The Army used the
    funding for the FMTV program in FYs 2005 and 2006 to procure additional
    vehicles to backfill for medium tactical vehicles that Army units deployed to
    Southwest Asia. The backfill of vehicles in the Continental United States
    allowed returning Army units to train for their next mission or deployment.
    The Army has deployed 12,310 medium tactical vehicles to Southwest Asia
    and the Horn of Africa. Through emergency supplemental funding, the
    Army has contracted to procure an additional 10,025 FMTVs to replace the
    vehicles that may be left in theater. According to a representative of the
    Army’s Deputy Chief of Staff, G-8, the Army will either bring some, all, or
    none of the vehicles back to the United States. The representative stated that
    if the Army leaves any vehicles in theater, the Army would either give or sell
    those vehicles to the Iraqi or Afghan Governments.


Objectives
    The primary audit objective was to determine whether the Army was
    adequately protecting the Army’s interest when using the conditional
    acceptance provision in production contracts for the FMTV program. In
    addition, we determined whether the Army was appropriately using the



                                      3
     supplemental funds that Congress provided to the FMTV program office in
     support of the Global War on Terrorism.


Review of Internal Controls
     FMTV Internal Control Weaknesses. The Army’s internal controls for the
     FMTV contract were not adequate. We identified material internal control
     weaknesses in the application of internal controls as defined by
     DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program
     Procedures,” January 4, 2006, associated with the FMTV program and the
     administration of its current contract, DAAE07-03-C-S023. Although the
     internal controls outlined in the DoD 5000 series of guidance and the Federal
     Acquisition Regulation were adequate for controlling the program, Army
     acquisition officials did not follow those controls. Specifically, the FMTV
     administrative contracting officer did not adhere to contract provisions when:

            •   conditionally accepting vehicles that had not completed required
                first article testing; and

            •   paying the contractor up to 100 percent of the contract price for
                conditionally accepted vehicles that were authorized by the
                procuring contracting officer or authorized by the contract terms.

     Further, the Defense Contract Management Agency (DCMA) administrative
     contracting officer did not begin charging the contractor until December 29,
     2006, for reinspection costs when the contractor failed to noticeably improve
     the acceptance rate for vehicle lot inspections. The DoD 5000 series of
     guidance states that the primary objective of Defense acquisition is to acquire
     quality products that satisfy user needs in a timely manner at a fair and
     reasonable price. By implementing the recommendations in this report, the
     Army will be better equipped to meet the objective of the Defense
     Acquisition System. We will provide a copy of this report to the senior
     officials responsible for internal controls in the Department of the Army and
     in DCMA.

     FMTV Prior Coverage Internal Control Weaknesses. DoD Inspector
     General Report No. 96-005, “Quick-Reaction Audit Report on Conditional
     Acceptance of Medium Tactical Vehicles,” October 12, 1995, stated that the
     Army contracting officer had used a conditional acceptance clause in the
     contract with the FMTV program because the program manager believed that
     there was a need to have vehicles available for deployment. In addition, the
     program manager believed that conditionally accepting vehicles would
     smooth out the workload of accepting and fielding vehicles, and that refusal
     to accept vehicles would create a perception that the Army was being
     punitive over trivial issues. The auditors did not find a validated need for
     deploying vehicles. Further, the auditors found that incomplete vehicles
     were being conditionally accepted, causing the need for extensive retrofitting
     at additional expense. Conditionally accepted vehicles remained at the
     contractor’s facility without being completed, retrofitted, or used for as long
     as 2 years. Finally, the auditors found that design changes made the FMTV
     design unsupportable because of replacement of spare parts and extensive


                                        4
rework. The additional inspections and rework did not smooth out the
workload; rather, they increased the level of work. The audit report
concluded that the Army prematurely paid the contractor $7.1 million for
vehicles the Army could not immediately use.




                                 5
            A. Conditional Acceptance of Family
               of Medium Tactical Vehicles
            As was the case more than 11 years ago, the procuring contracting
            officer for the FMTV, after consulting with the Project Manager
            Tactical Vehicles, authorized the administrative contracting officer to
            conditionally accept incomplete vehicles and the administrative
            contracting officer paid the contractor up to 100 percent of the
            contract price for some of the vehicles. From January 30, 2004,
            through January 31, 2007, the procuring contracting officer approved
            32 contractor requests and inappropriately conditionally accepted
            1,745 FMTVs. This condition occurred because the Project Manager
            Tactical Vehicles believed that the conditional acceptance allowed a
            more efficient production and acceptance process. The project
            manager also believed these practices were in the best interest of the
            Army even though they were not in accordance with the contract
            terms and the Federal Acquisition Regulation. The conditional
            acceptance of vehicles resulted in the Army prematurely paying more
            than $3.8 million for vehicles. The conditional acceptance of vehicles
            also unnecessarily increased the Army cost risk. (This is a repeat
            finding that was discussed in DoD Inspector General Report
            No. 96-005, “Quick-Reaction Audit Report on Conditional
            Acceptance of Medium Tactical Vehicles,” October 12, 1995.)


Policy for Conditional Acceptance
     Federal Acquisition Regulation (FAR) Part 46, “Quality Assurance,”
     provides guidance for conditionally accepting vehicles that do not conform to
     contract specifications.

     FAR 46.101. FAR 46.101, “Definitions,” defines conditional acceptance as
     acceptance of supplies or services that do not conform to contract quality
     requirements, or are otherwise incomplete. The contractor is required to
     correct or otherwise complete the supplies or services by a specified date.

     FAR 46.407. FAR 46.407, “Nonconforming Supplies or Service,” states that
     the contracting officer should reject supplies or services not conforming in all
     respects to contract requirements except when the contracting officer
     determines acceptance or conditional acceptance, for reasons of economy or
     urgency, is in the best interest of the Government. This part of the FAR does
     not define economy or urgency; however, the dictionary defines “urgency” as
     calling for immediate attention and defines “economy” as thrifty and efficient
     use of material resources.




                                        6
    FAR 46.407 states that the contracting officer makes the determination to
    conditionally accept items based on:

           •   advice of the technical activity that the item is safe to use and will
               perform its intended purpose;

           •   information regarding the nature and extent of the
               nonconformance;

           •   a request from the contractor for acceptance of the nonconforming
               or otherwise incomplete supplies or services;
           •   a recommendation for acceptance, conditional acceptance, or
               rejection, with supporting rationale; and

           •   a contract adjustment considered appropriate, including any
               adjustment offered by the contractor.

    FAR 46.407 states that for a major nonconformance, the Government must
    withhold payment sufficient to cover the estimated cost and related profit to
    correct deficiencies and complete unfinished work. It states that the
    contracting officer should modify the contract to provide for an equitable
    price reduction, or other consideration, for a critical or major
    nonconformance.

    Further, FAR 46.407 states that conditional acceptance withholdings should
    be at least sufficient to cover the estimated cost and related profit to correct
    deficiencies and complete unfinished work. It also states that the contracting
    officer must document in the contract file the basis for the amounts withheld.

    Withholding funds discourages contractors from repeatedly providing
    nonconforming supplies or services, including those with only minor
    nonconformances. The contracting officer can take appropriate action, such
    as rejecting the supplies or services and documenting the contractor’s
    performance record, to discourage poor performance from the contractor.


Contract Payment Terms
    The FMTV contract, contract DAAE07-03-C-S023 with Stewart and
    Stevenson Tactical Vehicle Systems, Limited Partnership, states that the
    contractor should receive, as performance-based payments, 80 percent of the
    vehicle price for successful completion of performance-based payment
    events defined in the contract. These events include ordering and receiving
    vendor confirmation of items needed to manufacture vehicles in support of
    the contract delivery schedule. The Government pays the remaining 20
    percent of the vehicle price when the vehicle passes final inspection and
    acceptance. In addition, the contract provides terms for the Government, at
    its sole discretion, to conditionally accept vehicles. Specifically, the contract
    states that conditional acceptance before first article approval allows the


                                        7
           contractor to invoice up to 90 percent of the vehicle’s base unit price. The
           Government may, based on contractor performance, increase the invoice
           percentage above the 90-percent limitation.

           The contractor’s performance has not justified exceeding the 90-percent
           limitation. (See finding B.)


Conditional Acceptance of Vehicles
           The procuring contracting officer accepted 32 contractor requests for the
           Army to conditionally accept 2,366 vehicles from January 30, 2004, through
           January 31, 2007, on contract DAAE07-03-C-S023. The procuring
           contracting officer authorized conditional acceptance of 1,745 of the 2,366
           vehicles because the contractor had not met contract vehicle specifications.
           The procuring contracting officer authorized conditional acceptance of the
           remaining 621 vehicles because the Army had not provided Government-
           furnished items to the contractor. The following table shows the number of
           vehicles conditionally accepted in relation to the total number of vehicles
           accepted4 under contract DAAE07-03-C-S023.

           Vehicles Accepted and Conditionally Accepted Under Contract
           DAAE07-03-C-S023

                                                                   Vehicles          Vehicles
                           Total Vehicles                        Conditionally     Conditionally
                            Accepted at         Vehicles         Accepted for      Accepted for
                 Fiscal      Contractor       Conditionally       Government        Contractor’s
                 Year       Submission1        Accepted          Responsibility    Responsibility

                 2004             28                 28                 0                28
                 2005          2,887                653               201               452
                 2006          5,267                974               143               831
                 2007          2,225                711               277               434


                 Total        10,4072             2,366               621              1,745
             1
               The total of vehicles accepted includes both conditional and final vehicle
                acceptance.
             2
               Through January 31, 2007.


           Contractor Responsibility for Conditionally Accepted Vehicles. As was
           the case more than 11 years ago, the procuring contracting officer for the
           FMTV, after consulting with the Project Manager Tactical Vehicles,
           authorized the administrative contracting officer to conditionally accept
           incomplete vehicles and the administrative contracting officer paid the
           contractor up to 100 percent of the contract price for the vehicles. From
4
    The total number of vehicles accepted includes FMTV trucks, trailers, and High Mobility Artillery
    Rocket System chassis.



                                                    8
           January 30, 2004, through January 31, 2007, the procuring contracting officer
           approved 13 contractor requests for the Army to conditionally accept
           1,745 (74 percent) of the 2,366 vehicles for various contractor reasons. Of
           the 1,745 vehicles, 155 were conditionally accepted for more than one
           reason, totaling 1,900 reasons for conditional acceptance. In acting on the
           contractor requests, the procuring contracting officer directed the
           administrative contracting officer to conditionally accept 466 of the
           1,745 vehicles with vehicle nonconformances but did not direct the
           administrative contracting officer to withhold payment, as required by the
           FAR, and the administrative contracting officer paid 100 percent of the
           vehicle price. The administrative contracting officer also conditionally
           accepted 190 of the 1,745 vehicles that had not completed testing
           requirements. According to the contract terms, the administrative contracting
           officer did not need authorization from the procuring contracting officer to
           conditionally accept those vehicles. However, the contract stated that the
           administrative contracting officer does need procuring contracting officer
           authorization to pay more than 90 percent of the vehicle price for those
           vehicles. The administrative contracting officer paid 100 percent of the
           vehicle price for those vehicles without authorization.

           The administrative contracting officer conditionally accepted and paid full
           price for the 656 vehicles in response to the following contractor reasons for
           the Government to conditionally accept the vehicles:

               •    noncompletion of testing requirements (190 vehicles);

               •    request for a deviation of nonconforming contractor parts
                    (14 vehicles);5 and

               •    delivery schedule delays for the contractor to incorporate engineering
                    change proposals (452 vehicles).

                   Testing. The administrative contracting officer approved and paid
           the contractor the full contract price for 190 conditionally accepted vehicles
           that had not completed first article tests, production verification tests, or
           component first article tests. The contract terms specify that conditional
           acceptance before first article approval allowed the contractor to invoice up
           to 90 percent of the vehicle’s base unit price. The procuring contracting
           officer may allow the contractor to invoice more than the 90 percent based on
           the contractor’s performance; however, the contractor’s performance did not
           justify exceeding the 90-percent limitation.

                    Nonconforming Parts. By contract terms, the contractor is
           responsible for providing vehicles that conform to vehicle specifications.
           DCMA personnel found during final inspection that the contractor did not
           install the correct draglink part on 14 vehicles because the contractor had not
           ordered the correct draglink parts. As a result, the contractor requested a
           deviation for the draglink, which is a major nonconformance deviation, in a
           conditional acceptance letter for 22 vehicles. The procuring contracting

5
    These 14 vehicles were also conditionally accepted for not completing test requirements.


                                                    9
           officer authorized the conditional acceptance of 14 vehicles and did not
           require the administrative contracting officer to withhold payments from the
           contractor for the correction of the nonconforming draglink.6 As required in
           the FAR, the procuring contracting officer should have directed the
           administrative contracting officer to withhold payment from the contractor
           sufficient to cover the estimated cost and related profit of correcting this
           unacceptable condition.

                  Delivery Schedule Delays for the Contractor to Incorporate
           Engineering Change Proposals. The procuring contracting officer
           authorized conditional acceptance of 452 vehicles from December 2004
           through April 2005 that were not ready for delivery as required by the
           contract schedule because the contractor had not, for 16 engineering change
           proposals incorporated in the contract, included those engineering changes in
           those vehicles. Subsequently, the contractor retrofitted the 452 conditionally
           accepted vehicles with requirements specified in the 16 engineering change
           proposals.

           Army Responsibility. The procuring contracting officer conditionally
           accepted 621 (26 percent) of the 2,366 vehicles for reasons caused by the
           Army, including:

                •   the Army had not incorporated engineering change proposals in the
                    contract; and

                •   the Army had not provided Government-furnished items, such as
                    technical manuals, weight classification signs, and paint patterns.

           In these cases, the procuring contracting officer had the authority to pay full
           vehicle price because the Government was responsible for the conditions that
           caused the conditional acceptance.

                    Engineering Change Proposal Example. The procuring contracting
           officer authorized conditional acceptance of six vehicles because the
           contractor had incorporated an agreed-on engineering change proposal for
           the expansible van vehicle platforms and chassis that had not yet been added
           to the contract through contract modification. The contracting officer stated
           that DCMA could not fully accept the six vehicles with the new engineering
           change because the Army had not added the engineering change to the
           contract through contract modification. The contracting officer properly paid
           the full vehicle price to the contractor because the conditional acceptance
           was Government-caused.

                   Government-Furnished Item Examples. The procuring contracting
           officer authorized conditional acceptance of the other vehicles because the
           Army had not provided Government-furnished items. The Army accepted
           296 vehicles because of the lack of technical manuals, 233 vehicles because
           of a lack of weight classification signs, and 86 vehicles because of the lack of
           paint patterns. The Army was responsible for the delivery of these items.
           Because the Army had not provided these items, the administrative
           contracting officer conditionally accepted the vehicles. The administrative

6
    The contractor used the correct draglink for the remaining eight vehicles.


                                                    10
     contracting officer had the authority to pay the full vehicle price to the
     contractor because the conditional acceptance was caused by the lack of
     Government action.


Reason for Conditionally Accepting Vehicles
     The Project Manager Tactical Vehicles (the Project Manager) stated that the
     Army should continue conditionally accepting vehicles from the contractor
     because conditional acceptance provided a more efficient production and
     acceptance process.


Audit Evaluation of Reason for Conditional Acceptance
     The Project Manager’s reason for continuing to conditionally accept vehicle
     lots was not valid. The conditional acceptance of vehicle lots did not provide
     for a more efficient production and acceptance process.

     Efficient Production. The Project Manager stated that the Army needed to
     continue conditionally accepting vehicle lots for more efficient production.
     However, conditionally accepting vehicle lots did not result in a more
     efficient production process and was not economical for the Government
     because:

            •   DCMA was required to reinspect vehicle lots until they passed
                inspection acceptance, which resulted in increased time and
                expense to the Government; and

            •   after conditional acceptance of vehicle lots, DCMA was required
                to oversee contractor changes made to the vehicles before
                reinspection for acceptance.

     Acceptance Process. The Project Manager stated that the Army needed to
     continue conditionally accepting vehicle lots because conditional acceptance
     provided a more efficient acceptance process. However, from January 2004
     through January 2007, the contracting officer’s conditional acceptance
     practice did not provide for increased acceptance efficiency. Instead, the
     percentage of FMTV lots passing initial acceptance inspection declined from
     86 percent to 21 percent. Based on the contractor’s declining rate of vehicle
     lot acceptance, the contracting officer’s conditional acceptance of the
     FMTVs was not resulting in a more efficient or economic acceptance
     process, as required by the FAR for conditional acceptance, and was not in
     the best interest of the Government. Finding B addresses the decline in first
     inspection acceptance of FMTV lots. Further, the administrative contracting
     officer stated that the Government did not allow the contractor to ship
     conditionally accepted vehicles with major nonconformances until they met
     contract specifications. As a result, the Army did not deploy the
     conditionally accepted vehicles with major nonconformances more rapidly


                                       11
    and the Army did not meet the urgency requirement as established in the
    FAR to continue conditionally accepting FMTVs.


Effect of Not Withholding Payments
    The contractor did not have the incentive to resolve the problems that led to
    the conditional acceptance when the procuring contracting officer authorized
    the FMTV administrative contracting officer to conditionally accept vehicles
    not conforming to contract requirements and did not instruct the
    administrative contracting officer to withhold payment, as required by the
    FAR. Similarly, the administrative contracting officer did not provide
    incentive to the contractor to complete required testing when he conditionally
    accepted vehicles that had not received first article approval and did not
    withhold payments as stated in the contract. Because the administrative
    contracting officer did not withhold payment for vehicles conditionally
    accepted between January 2004 and January 2007, the Army made premature
    payments of more than $3.8 million for incomplete vehicles. Specifically,
    the $3.8 million the Army prematurely paid the contractor was for the
    190 vehicles that had not completed testing requirements. The $3.8 million
    is the difference between the amounts paid to the contractor for successful
    completion of events for contract performance-based payments and the total
    amount paid to the contractor for the conditional acceptance of the 190
    vehicles. The remaining 466 vehicles were conditionally accepted with
    major nonconformances and delivery schedule delays for the contractor to
    incorporate engineering changes; however, we could not determine the
    amount prematurely paid to the contractor for those vehicles because the
    amount to be withheld is based on the estimated cost to correct the
    deficiencies as stated in the FAR 46.407. Information on the estimated cost
    to correct the deficiencies was not included on the contractor’s requests for
    conditional acceptance.


Management Actions
    During the audit, the administrative contracting officer recognized the need
    to withhold payment on conditionally accepted vehicles. Specifically, on
    October 23, 2006, the administrative contracting officer issued a letter to the
    contractor. The letter stated that the administrative contracting officer would
    withhold 10 percent of the payment for 106 vehicles that were previously
    conditionally accepted and paid in full. The amount to be recouped totaled
    approximately $2.2 million. The administrative contracting officer planned
    to recover the money by deducting the amount from the contractor’s
    performance-based payments.


Conclusion
    The conditional acceptance of 656 vehicles by the contracting officers
    resulted in the Army prematurely paying the contractor more than


                                      12
    $3.8 million for vehicles for which the Army received no immediate benefit
    through expedited delivery to Army units. Specifically, the Army did not
    receive immediate benefit from conditionally accepting the vehicles because
    the Army did not accept delivery of the vehicles until the contractor
    completed testing requirements or corrected outstanding vehicle deficiencies.

    By continuing to conditionally accept vehicles, the Government is not
    providing the incentive to produce conforming vehicles as required in the
    FAR. The conditional acceptance of vehicles unnecessarily increased the
    Army’s cost risk and was not in the best interest of the Government. (This is
    a repeat finding that was discussed in DoD Inspector General Report
    No. 96-005, “Quick-Reaction Audit Report on Conditional Acceptance of
    Medium Tactical Vehicles,” October 12, 1995.)


Management Comments on the Finding and Audit
 Response
    Summaries of management comments on the finding and audit responses are
    in Appendix C.


Recommendations, Management Comments, and Audit
  Response
    A. We recommend that the Director, TACOM Life Cycle Management
    Command Acquisition Center direct that the procuring contracting
    officer for contract DAAE07-03-C-S023:

               1. Discontinue the practice of conditionally accepting
    incomplete Family of Medium Tactical Vehicles for nonconformances of
    contractor responsibility unless reasons of economy or urgency exist as
    defined in the Federal Acquisition Regulation.

    Management Comments. The Deputy Chief of Staff, TACOM Life Cycle
    Management Command, responding for the Director, TACOM Life Cycle
    Management Command Acquisition Center, concurred with the
    recommendation. He stated that he would notify the procuring contracting
    officer to discontinue the practice of authorizing the conditional acceptance
    of incomplete FMTVs for nonconformances of contractor responsibility
    unless reasons of economy or urgency exist as defined in the FAR are
    documented. The Deputy Chief of Staff planned to implement this
    recommendation by September 30, 2007.

    Audit Response. The Deputy Chief of Staff comments were responsive to
    the recommendation.




                                      13
           2. Limit payment to the contractor to 90 percent of the
vehicle unit price for conditionally accepted vehicles that have not
completed test requirements.

Management Comments. The Deputy Chief of Staff, TACOM Life Cycle
Management Command concurred with the recommendation, stating that the
Director, TACOM Life Cycle Management Command Acquisition Center
would instruct the procuring contracting officer to remind the administrative
contracting officer to limit payment to the contractor to 90 percent of the
vehicle unit price for conditionally accepted vehicles that have not completed
test requirements. The Deputy Chief of Staff planned to implement this
recommendation by September 30, 2007.

Audit Response. The Deputy Chief of Staff comments were responsive to
the recommendation.

          3. Withhold payment of an amount to correct major vehicle
nonconformances that were attributable to the contractor as specified in
the contract payment terms and the Federal Acquisition Regulation.

Management Comments. The Deputy Chief of Staff, TACOM Life Cycle
Management Command concurred with the recommendation. He stated that
the Director, TACOM Life Cycle Management Command Acquisition Center
would instruct the procuring contracting officer that when authorizing
conditional acceptance of vehicles with major nonconformances attributable
to the contractor to establish an amount, as specified in the contract payment
terms and the FAR, to be withheld by the administrative contracting officer
to correct the major nonconformance. The Deputy Chief of Staff planned to
implement this recommendation by September 30, 2007.

Audit Response. The Deputy Chief of Staff comments were responsive to
the recommendation.




                                  14
             B. First Inspection Acceptance of
                Family of Medium Tactical
                Vehicles
            Stewart and Stevenson Tactical Vehicle Systems, Limited Partnership
            (FMTV contractor) was submitting vehicle lots for Government
            acceptance that were not meeting first inspection acceptance
            requirements in the contract. Specifically, Government acceptance of
            FMTV lots at first inspection decreased from 86 percent in January
            2004 to 21 percent in January 2007. This condition occurred because
            the contractor increased the daily vehicle production output to meet
            production requirements in DoD’s annual and emergency
            supplemental appropriations, despite the contractor’s inability to
            consistently meet vehicle lot first inspection acceptance requirements
            at lower production output levels. As a result, DCMA incurred
            additional reinspection costs to verify that vehicles resubmitted for
            inspection met contract specifications.


Policy for Inspection and Acceptance of Goods

     The FAR and the DCMA Guidebook provide guidance on the inspection and
     acceptance of goods delivered to the Government.
     FAR. FAR 46.102, “Policy,” requires contracting agencies to:

            •   include inspection and other quality requirements in contract
                clauses to protect the Government’s interest,
            •   ensure that supplies or services meet contract requirements,
            •   conduct quality assurance before acceptance, and
            •   reject nonconforming supplies or services unless otherwise
                covered under the FAR provision.
     FAR 46.105, “Contractor Responsibilities,” states that the contractor is
     responsible for carrying out its obligation under the contract by controlling
     the quality of supplies or services presented to the Government. Further, the
     contractor should verify that suppliers have an acceptable quality control
     system and ensure that supplies or service conform to contract quality
     requirements.
     FAR 52.246-2, “Inspection of Supplies—Fixed-Price,” authorizes the
     contracting officer to charge the contractor for any additional cost of
     inspection or test when prior rejection makes reinspection or retest necessary.
     DCMA Guidebook. The DCMA Guidebook states that when a supplier has
     a contractual nonconformance, a corrective action request formally


                                       15
    communicates the deficiency and the request for corrective action to the
    supplier. See the definition for “Corrective Action Request” in Appendix B
    for the different levels of corrective action requests.

Acceptance Requirements for FMTVs
    The contract system specification requires the contractor to present vehicles
    that conform to the contract requirements for final inspection by the
    Government. The Product Manager FMTV and DCMA established a
    memorandum of agreement that defined quality metrics to measure the
    contractor’s quality performance at final vehicle inspection.

    Contract System Specification. The contract system specification requires
    the contractor to ensure that all items produced meet all requirements of the
    acceptance test documents. It also requires the contractor to inspect each
    vehicle produced, using a Government-approved final inspection record,
    before presenting the vehicle to the Government. When defects are found,
    the contractor is responsible for taking corrective action and performing
    reinspection before offering the vehicle to the Government for final
    acceptance.

    Memorandum of Agreement. In a September 1, 2006, memorandum of
    agreement, “Memorandum of Agreement with TACOM Product Manager
    Family of Medium Tactical Vehicles and Defense Contract Management
    Agency Sealy,” the Product Manager FMTV and DCMA established metrics,
    called the first pass yield, to measure the quality of the vehicles presented by
    the FMTV contractor. The memorandum of agreement established
    Government metrics for measuring the contractor’s performance. Per the
    memorandum of agreement, a first pass yield is calculated by dividing the
    total number of vehicle lots accepted at first inspection by the total number of
    vehicle lots presented. The first pass yield goal is to have 100-percent
    acceptance of vehicle lots presented during first inspection, as required by
    the contract system specification. A first pass yield rate less than 95 percent
    indicates that the contractor’s quality system is not preventing quality issues
    and places the Government at risk. A lot was considered acceptable if it had
    zero major defects or three or fewer minor defects.


Inspection and Acceptance Pass Rate
    With the increasing vehicle workload resulting from the emergency
    supplemental appropriations, the contractor has not demonstrated the ability
    to meet the first pass yield metric established in the memorandum of
    agreement. Specifically, the vehicle lot first pass yield rate decreased from
    86 percent in January 2004 to 21 percent in January 2007. The first pass
    yield rate declined as the production level increased to meet the additional
    quantity of vehicles procured due to additional emergency supplemental
    funds. The increase of funds, and corresponding contractual requirements,
    required the contractor to eventually increase production to 35 vehicles per
    day from 12 vehicles per day in 2004. As of January 2007, production had
    increased to 33 vehicles per day. The following figure illustrates the first


                                      16
    pass yield rate for vehicle lot inspections from January 2004 through
    January 2007.

                                                                     First Pass Yield
      100%

       80%

       60%

       40%
                                                                                                                                  First Pass
       20%                                                                                                                        Yield

        0%
             Jan-04

                      Apr-04

                               Jul-04

                                        Oct-04

                                                 Jan-05

                                                          Apr-05

                                                                   Jul-05

                                                                            Oct-05

                                                                                     Jan-06

                                                                                              Apr-06

                                                                                                       Jul-06

                                                                                                                Oct-06

                                                                                                                         Jan-07
    First Pass Yield Percentage Rates



DCMA Actions to Improve Contractor Performance
    Although the contractor had not met the first pass yield threshold since
    February 2005 and DCMA issued 285 level II corrective action requests in
    2006, DCMA did not charge the contractor required reinspection costs until
    after we announced this audit in July 2006. Further, the contractor did not
    place quality inspectors on the FMTV production line until after issuance of
    a level II corrective action request in September 2006.

    Level II Corrective Action Request. On September 5, 2006, DCMA issued
    a level II corrective action request to the contractor for the period spanning
    October 1, 2004, through July 3, 2006, as a result of the contractor
    continuing to present vehicle lots for final acceptance inspection that did not
    conform to contract requirements. During that period, the contractor
    presented 570 vehicle lots for final acceptance, of which DCMA accepted
    387 on first inspection, equating to a 69-percent first past yield. DCMA had
    to reinspect some vehicle lots up to four times before final acceptance.
    Further, DCMA stated in the corrective action request that the Government
    expected to see some reduction in defects and an increase in the first pass
    yield within 30 days. If the downward trend continued, DCMA stated that it
    would charge reinspection costs as specified in FAR 52.246-2 and identified
    in the contract under the “Inspection and Acceptance” clause. The contractor
    responded to the level II corrective action request by stating that the
    increased defects at final acceptance inspection resulted from segmented
    training and lack of data feedback for resolution of the problems.

    Contractor Performance After Issuance of the Level II Corrective
    Action Request. The contractor’s first pass yield rate improved slightly
    after issuance of the September 5, 2006, level II corrective action request but
    declined afterwards. Specifically, the contractor’s first pass yield rate


                                                                    17
    increased from 15 percent in August 2006 to 39 percent in September 2006.
    The first pass yield fell to 19 percent in October, November, and December
    2006. The first pass yield increased slightly in January 2007 to 21 percent.

    Reinspection Costs Charged to the Contractor. On November 21, 2006,
    DCMA issued a letter to the contractor that assessed the contractor a fee of
    $31,298 for reinspection costs. DCMA assessed this amount for
    reinspections of 26 vehicle lots from July 2006 through October 2006, which
    consumed 325 labor hours and associated administrative costs. In a
    November 21, 2006, memorandum, the contractor acknowledged DCMA’s
    right to charge a reinspection fee and requested that DCMA and the
    contractor meet every 2 weeks to review progress. On November 29, 2006,
    DCMA agreed to meet with the contractor every 2 weeks to review quality
    process improvements. The contractor developed a list of tasks for corrective
    action and DCMA agreed to hold the $31,298 bill for reinspection costs in
    abeyance.

    On December 29, 2006, DCMA rebilled the contractor $31,298 for
    reinspecting the 26 vehicle lots because the contractor had not demonstrated
    significant improvement in the first pass yield rate.

    Level III Corrective Action Request. On February 15, 2007, DCMA
    issued a level III corrective action request to the contractor because the
    contractor continued to present vehicles for acceptance that did not conform
    to contract requirements after DCMA issued the level II corrective action
    request. In the level III corrective action request, DCMA notified the
    contractor that if the downward trend continued, DCMA would escalate the
    issue to higher levels of management. It also stated DCMA expected a
    response from the contractor to resolve the problem within 10 business days.

    Assessment of Additional Reinspection Costs. On February 21, 2007,
    DCMA billed the contractor $90,134 for reinspecting 52 vehicle lots and
    76 special variants from November 2006 through January 2007.

    Quality Inspectors on the Production Line. Part of the problem with the
    vehicle quality related to the contractor not having quality inspectors situated
    on the production line. Specifically, the contractor did not have any quality
    inspectors on its production line when we initiated this audit. The Armor
    Holdings Vice President for Quality, Tactical Vehicle Systems stated that
    quality inspectors had not been on the production line since 2003. As part of
    its response to the level II corrective action request, the contractor placed
    quality inspectors back on the production line on September 18, 2006.


Conclusion
    The FMTV contractor has not demonstrated the ability to meet the vehicle lot
    first pass yield rates for final inspection acceptance established in the
    memorandum of agreement and continued to present nonconforming vehicles
    for inspection. The daily contractor vehicle production output requirement
    for FMTVs has more than doubled since the Army received emergency
    supplemental funds, to a point where the contractor cannot produce quality


                                      18
    vehicles. Accordingly, the Program Executive Officer for Combat Support
    and Combat Service Support needs to have the FMTV program office reduce
    the rate of FMTVs being produced by the contractor until the contractor can
    produce vehicle lots for first inspection acceptance that at a minimum meet a
    95-percent first pass acceptance rate. As discussed in the finding, DCMA
    did take a number of actions to improve contractor performance before the
    audit, but those actions did not materially affect contractor performance. As
    a result, during the audit, DCMA began charging the contractor reinspection
    fees to encourage the contractor to present vehicle lots for final inspection
    acceptance in conformance with contract system specifications. Until the
    contractor begins presenting vehicle lots that meet the 95-percent first pass
    yield rate, DCMA needs to continue assessing the contractor for costs
    associated with reinspecting the vehicles.


Management Comments on the Finding and Audit
 Response
    Summaries of management comments on the finding and audit responses are
    in Appendix C.


Recommendations, Management Comments, and Audit
  Response

    B.1. We recommend that the Program Executive Officer for Combat
    Support and Combat Service Support direct the Product Manager
    Family of Medium Tactical Vehicles to decrease the daily production
    output requirement for medium tactical vehicles until the contractor can
    present vehicles for final inspection acceptance that conform to contract
    requirements and achieve the first pass yield rates specified in the
    memorandum of agreement between the Product Manager Family of
    Medium Tactical Vehicles and the Defense Contract Management
    Agency.
    Management Comments. The Deputy Program Executive Officer Combat
    Support and Combat Service Support, responding for the Program Executive
    Officer Combat Support and Combat Service Support, nonconcurred with the
    recommendation. He stated that the first pass yield measure is one of many
    internal metrics DCMA Sealy uses to assist them in ensuring that the quality
    of the trucks presented to the Government for acceptance is maintained. He
    stated that more importantly, the contractor continues to meet its monthly and
    yearly contractual truck delivery requirements to the Government.
    Additionally, the Deputy Program Executive Officer stated that vehicles
    produced and fielded are meeting or exceeding user requirements as
    evidenced by FMTV’s operational readiness rate of over 93.5 percent. He
    stated that this outstanding operational readiness rate includes FMTVs used
    in the Global War on Terrorism in Iraq and Afghanistan. The Deputy


                                     19
Program Executive Officer stated that decreasing FMTV production would
not be in the best interest of our Army or its soldiers. He stated that in
accordance with the approved truck modernization strategy, the FMTV is
replacing the older and much less reliable M-35, M809, and M939 tactical
vehicles. The Deputy Program Executive Officer stated that the FMTV is a
much safer tactical vehicle and is required to modernize the medium fleet.
He stated that the FMTV’s Low Signature Armored Cab is providing life-
saving armor protection for our warfighters and any delay in fielding this
vehicle will directly and unnecessarily place soldiers at risk.
Audit Response. The Deputy Program Executive Officer’s comments did
not address the issue of the contractor providing vehicles for inspection that
do not meet contract requirements. The Product Manager and DCMA
established the first pass yield to measure the quality of the vehicles
presented by the contractor and to determine whether the contractor was
presenting vehicles that met contract specifications. If the vehicles do not
meet contract specifications DCMA generates a corrective action request to
communicate the deficiencies and request corrective action by the contractor.
If the contractor is not delivering vehicles for inspection that meet system
specifications, the Government may take appropriate action, such as
terminating the contract . DCMA has issued more than 285 corrective action
requests based on quality issues, which the first pass yield measures.
According to DCMA officials, the contractor met the total FMTV quantity
deliveries required by the contract. However, the procuring contracting
officer allowed the contractor to substitute different FMTV variants to meet
overall monthly quantity requirements. According to the Deputy Chief of
Staff, G-8, only 445, or 10 percent, of the 4,354 vehicles scheduled to be
delivered by September 2008 are going to Southwest Asia. The Army plans
to use the remaining vehicles to support the Army’s modularity program and
backfill for vehicles already shipped to Southwest Asia. Therefore,
temporarily reducing the daily production rate should not affect deliveries to
Southwest Asia because even with reduced daily vehicle production
requirements, the FMTV contractor will be able to timely produce the
445 vehicles planned for shipment to Southwest Asia.
We do not dispute that the performance of deployed vehicles meets contract
specifications; however, it is important to hold the contractor to performance
standards to effectively and efficiently meet the needs of warfighters.
Temporarily decreasing daily vehicle production requirements would provide
the contractor an opportunity and incentive to correct production problems.
It would also enable the contractor to increase its capability to present
vehicles that conform to contract specifications at first inspection, which
would enable the Army to immediately ship the vehicles to Army units.
Therefore, temporarily slowing down the production rate would not increase
risk to the warfighter as stated in the management comments. Accordingly,
we request that the Program Executive Officer for Combat Support and
Combat Service Support reconsider his position on the recommendation and
provide additional comments in response to the final report.
B.2. We recommend that the Director, Defense Contract Management
Agency continue to bill the contractor for reinspection costs, as
authorized in Federal Acquisition Regulation 52.246-2, “Inspection of
Supplies—Fixed-Price,” until the contractor presents vehicles for final
inspection acceptance that conform to contract requirements and


                                  20
achieve first pass yield rates specified in the memorandum of agreement
between the Product Manager Family of Medium Tactical Vehicles and
Defense Contract Management Agency.
Management Comments. The Acting Director, Defense Contract
Management Agency partially concurred with the recommendation. He
stated that he agreed that billing for reinspection costs is authorized under
FAR 52.246-2. However, the Acting Director stated that reinspection
charges are just one of many tools that DCMA can use to improve contractor
performance. He stated that DCMA took several actions to improve
contractor performance, which included issuing corrective action requests
and initiating an integrated process team to examine the quality issues. The
Acting Director stated that the integrated process team also implemented
several actions, such as developing an employee training program, clarifying
the vehicle technical specification, developing a paint guidance reference,
changing the production process, changing the vehicle inspection, and
initiating a defect reduction effort. Because those actions did not improve
the contractor’s final vehicle inspection acceptance rate to an acceptable
level, he stated that DCMA plans to continue charging reinspection costs
until the first pass yield rate exceeds 80 percent. Because the first pass yield
is specified in the memorandum of agreement, not in the contract, that rate
can be adjusted.

Audit Response. The Acting Director’s comments were responsive to the
intent of the recommendation.




                                   21
Appendix A. Scope and Methodology
   We evaluated whether the Army was cost effectively producing and funding
   the Family of Medium Tactical Vehicles (FMTV) in support of the Global
   War on Terrorism. In addition, we evaluated whether the Army adequately
   protected the Government’s interests when it implemented conditional
   acceptance provisions in the production contracts for the FMTV.

   We conducted this performance audit from July 2006 through July 2007 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based
   on our audit objectives.

   We reviewed documentation and information dated from June 1, 1991,
   through February 21, 2007, to accomplish the audit objectives.

   We reviewed program documents for the FMTV including the joint service
   operational requirement document, June 1, 1991; the Acquisition Plan,
   September 25, 2002; the acquisition program baseline, March 25, 2003; the
   operational requirements document, April 28, 2003; and the test and
   evaluation master plan, March 23, 2004.

   We reviewed contractual documents for the FMTV including contracts
   DAAE07-03-C-S023 and W56HZV-04-C-0591 with Stewart and Stevenson
   Tactical Vehicle Systems, Limited Partnership; contracts W56HZV-04-C-
   0297 and W56HZV-04-C-0321 with Radian Incorporated; and conditional
   acceptance letters and performance-based payment invoices from
   January 2004 to January 2007.

   We reviewed funding documents for the FMTV including the Department of
   Defense “Fiscal Year 2005 Supplemental Request for Operation Iraqi
   Freedom, Operation Enduring Freedom, and Operation Unified Assistance,”
   February 2005; Public Law 109-13, “Making Emergency Supplemental
   Appropriations for Defense, the Global War on Terrorism, and Tsunami
   Relief, for the Fiscal Year Ending September 30, 2005,” May 11, 2005; the
   FY 2005 Funding Authorization Document August 22, 2005; Public Law
   109-148, “Department of Defense Emergency Supplemental Appropriations
   to Address Hurricanes in the Gulf of Mexico, and Pandemic Influenza Act,
   2006,” December 30, 2005; Department of Defense “Fiscal Year 2006
   Supplemental Request for Operation Iraqi Freedom and Operation Enduring
   Freedom,” February 2006; the Army National Guard Military
   Interdepartmental Purchase Request No. MIPR6FTACNGR01, March 21,
   2006; memorandum from the Deputy Secretary of Defense, “Ground Rules
   and Process for FY 2007 Spring Supplemental,” October 25, 2006; and the
   “FY 2006 Main Supplemental Funds Release Status for the Project Manager
   Tactical Vehicles,” December 14, 2006.

   We reviewed the production documents for the FMTV including the
   production status report for contract DAAE07-03-C-S023,


                                    22
    September 20, 2006; the shipped vehicles report, January 27, 2007; and the
    reports of conditionally accepted vehicles received, September 26, 2006, and
    December 5, 2006.

    We also contacted staffs at the Army Deputy Chiefs of Staff (G-3), (G-4),
    and (G-8); the Joint Capability Development Directorate (J-8); the Director,
    Operational Test and Evaluation; the Army Materiel Command; the Army
    Test and Evaluation Command; the Project Manager Tactical Vehicles; the
    Defense Contract Management Agency; and Stewart and Stevenson Tactical
    Vehicle Systems, Limited Partnership, to determine program background,
    history, and the reasons why the Army continued to conditionally accept
    FMTVs.
    Use of Computer-Processed Data. We did not use computer-processed
    data to perform this audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This
    report provides coverage of the DoD Weapons System Acquisition and
    Contract Management high-risk areas.


Prior Coverage
    No prior coverage has been conducted on the conditional acceptance and the
    final inspection acceptance of Army medium tactical vehicles during the last
    5 years.




                                     23
Appendix B. Glossary
   Administrative Contracting Officer. The administrative contracting
   officer is responsible for government contracts administration. The
   administrative contracting officer develops and applies quality assurance
   procedures and verifies whether supplies or services conform to contract
   requirements.

   Combat Service Support. Combat Service Support staffs, arms, fuels, fixes,
   and moves the force. Its three major categories of tasks are logistics support,
   personnel service support, and health services support. Logistics includes
   supply, transportation, maintenance, and field services. Major personnel
   service support contributes to the welfare and morale of soldiers. Support
   functions include personnel and administration services, chaplain operations,
   and enemy prisoner of war operations. Health services include medical
   treatment and evacuation of casualties, preventive medicine, and medical
   supply operations.

   Conditional Acceptance. Conditional acceptance is the acceptance of
   contractor supplies or services that do not conform to contract quality
   requirements or are otherwise incomplete. The contractor is required to
   correct the deficiencies or otherwise complete contract requirements by a
   specified date.

   Contract System Specification. The contract system specification identifies
   the physical, performance, and inspection requirements of the program. The
   system specification establishes these requirements by identifying technical
   data requirements from which the vehicle is to be produced. It also
   establishes physical characteristics and performance requirements for the
   vehicles produced. Further, the system specification identifies performance
   and quality test requirements used to verify that the vehicles meet the
   specified performance standards.

   Corrective Action Request. A corrective action request is prepared by a
   DCMA team member to formally communicate a contractual
   nonconformance to the supplier. The corrective action request lists the
   deficiencies and requests corrective action. Suppliers must respond to a
   corrective action request. There are four levels of corrective action requests:

          •   Level I corrective action requests are issued (written or verbal)
              when a contractual noncompliance requires no special
              management attention to correct. Level I corrective action
              requests may be directed to working-level personnel.

          •   Level II corrective action requests are written requests for
              corrective action for contractual noncompliances that are systemic
              in nature and could adversely affect cost, schedule, or
              performance if not corrected. Level II corrective action requests
              should be directed to the supplier management level responsible
              for the process with a copy to the responsible administrative
              contracting officer.



                                     24
       •   Level III corrective action requests call attention to serious
           contractual noncompliances to the supplier’s top management.
           Level III corrective action requests may be issued with
           contractual remedies such as reductions of progress payments,
           cost disallowances, cure notices, show cause letters, or business
           management systems disapprovals.

       •   Level IV corrective action requests involve contractual remedies
           such as suspension of progress payments or product acceptance
           activities, termination for default, and suspension or debarment, in
           accordance with applicable Federal Acquisition Regulation or
           Defense Federal Acquisition Regulation Supplement policies and
           procedures.

Cost Risk. Cost risk is the risk that a program will not meet its acquisition
strategy cost objectives. Two methodologies are used to achieve the cost
objectives and minimize cost risk. The first methodology is cost as an
independent variable where life-cycle cost objectives are balanced against
performance, schedule, and mission needs. In the second methodology, the
acquisition authority establishes cost objectives, which are provisions made
to measure the cost of processes, products, jobs, and capitalized projects.

Defense Contract Management Agency. The Defense Contract
Management Agency (DCMA) is an independent agency that performs
contract administration functions. The contracting officer delegates the
contract administration functions to DCMA. DCMA performs functions that
include:

       •   contract management for diverse product lines;

       •   price/cost analyses, overhead and contractor system reviews,
           financial services, property and plant clearance, transportation and
           packaging, and termination settlements;
       •   quality assurance by verification of contractor processes and
           performance of final inspection and acceptance of critical items;
           and

       •   program and technical support that analyze cost, schedule, and
           technical performance.

Engineering Change Proposal. An engineering change proposal
recommends to the responsible authority that a change to an original item of
equipment be considered, and the design or engineering change be
incorporated into the article to modify, add to, delete, or supersede original
parts.

Equitable Price Reduction. An equitable price reduction is an amount that
the contracting officer withholds from payment for an item to cover the
estimated cost and related profit on unfinished or deficient work on



                                  25
conditionally accepted items. The contracting officer must document in the
contract file the basis for the amounts withheld.

First Article Testing and Approval. First article testing and approval
ensures that the contractor can furnish a product that conforms to all contract
requirements for acceptance. The Government conducts these tests on a
random sample from the first production lot.

First Pass Yield. DCMA uses the first pass yield as a measure of quality. It
is obtained by dividing the number of lots accepted by the number of lots
inspected.

Full-Rate Production and Deployment. Full-rate production and
deployment is the second stage of the production and deployment phase of
the acquisition process. This stage follows after the milestone decision
authority approves a system for full-rate production. The system is produced
at full-rate and deployed to the field.

Funding Authorization Document. A funding authorization document
authorizes the use of funds for a governmental activity. The Army
Comptroller distributes the money to the Program Executive Office, and the
Program Executive Office divides the money among its programs.

Milestone Decision Authority. The milestone decision authority is the
designated individual with overall responsibility for a program. The
milestone decision authority has the authority to approve entry of an
acquisition program into the next phase of the acquisition process and is
accountable for cost, schedule, and performance reporting to higher
authority, including congressional reporting.

Military Interdepartmental Purchase Request. A military
interdepartmental purchase request is the primary document that DOD
organizations use to order goods or services from other DoD Components or
non-DoD Federal activities.

Nonconformance. A nonconformance is a supply or service that does not
conform to contract requirements. There are a variety of nonconformance
types.

       •   A critical nonconformance is a nonconformance that is likely to
           result in hazardous or unsafe conditions for individuals using,
           maintaining, or depending on the supplies or services; or is likely
           to prevent performance of a vital agency mission.

       •   A major nonconformance is a nonconformance, other than
           critical, that is likely to result in failure of the supplies or services,
           or to greatly reduce the usability of the supplies or services for
           their intended purpose.

       •   A minor nonconformance is a nonconformance that is not likely
           to greatly reduce the usability of the supplies or services for their
           intended purpose, or is a departure from established standards



                                    26
           having little bearing on the effective use or operation of the
           supplies or services.

Performance-Based Payments. Performance-based payments are a method
of providing financing to contractors performing under fixed-price contracts.
Performance-based payments differ from traditional progress payments in
that they are based on the achievement of specific events or accomplishments
that are defined and valued in advance by the parties to the contract, rather
than being tied to and based on incurred costs of performance.

Power Packs. Power packs consist of a turbine engine and a transmission.
Instead of fixing the engine or transmission on-site, maintenance soldiers
simply remove the faulty power pack and replace with an operable one.

TACOM Life Cycle Management Command. The TACOM Life Cycle
Management Command, in partnership with the Army’s Program Executive
Offices, is one of the Army’s largest organizations performing research,
development, and sustainment of weapons systems. It provides and sustains
mobility, lethality, and survivability requirements for soldiers through
ground combat, automotive, marine, and armaments technologies.

Test and Evaluation Master Plan. A test and evaluation master plan
documents the overall structure and objectives of a program’s test and
evaluation program. It provides a framework within which to generate
detailed test and evaluation plans, and documents schedule and resource
implications associated with the test and evaluation program.




                                  27
Appendix C. Management Comments on the
            Report and Audit Response
    The Acting Director, Defense Contract Management Agency and the Deputy
    Chief of Staff, TACOM Life Cycle Management Command provided
    comments on the draft report. Summaries of those comments and our
    responses follow. The complete text of those comments is in the
    Management Comments section of this report.


Management Comments on the Overall Report and
 Audit Response
    The Acting Director, Defense Contract Management Agency and the Deputy
    Chief of Staff, TACOM Life Cycle Management Command commented on
    statements in the executive summary and background sections of the draft
    report.

    Management Comments on the Memorandum of Agreement. The Acting
    Director, Defense Contract Management Agency commented on the first
    page of the Executive Summary, which stated, “The FMTV contractor,
    Stewart and Stevenson Services, was not meeting contract requirements for
    acceptance of vehicles at first Government inspection.” He suggested the
    sentence read, “The FMTV contractor, Stewart and Stevenson Services, was
    not meeting the Government’s goals as stated in the memorandum of
    agreement between the Product Manager and DCMA for acceptance of
    vehicles at first Government inspection.” In addition, the Acting Director
    commented on the first paragraph of the second page of the Executive
    Summary, which stated, “The FMTV contractor submitted vehicles for
    Government acceptance that did not meet first inspection acceptance
    requirements in the contract.” He suggested that the sentence read, “The
    FMTV contractor submitted vehicles for Government acceptance that did not
    meet the Government’s first inspection acceptance standards as stated in the
    memorandum of agreement between the product manager and DCMA.”

    Audit Response. Contract System Specification Clause 4.4.1, “One
    Hundred Percent (100 percent) Final Inspection,” requires the contractor to
    ensure that all items produced meet all requirements of the acceptance test
    documents. Before presenting the vehicle to the Government, the contractor
    is required to inspect each vehicle produced, using a Government-approved
    final inspection record. Supplementing the contract requirement, the
    memorandum of agreement between the Product Manager and DCMA
    defined acceptable levels of performance by the contractor when presenting
    vehicles for final inspection acceptance. Accordingly, the contractor was not
    meeting the requirements in the Contract System Specification Clause 4.4.1
    or the acceptable rate established in the memorandum of agreement for
    acceptance of vehicles at first Government inspection.




                                     28
Management Comments on the Invoicing Beyond 90 Percent for
Vehicles Awaiting First Article Approval. The Acting Director
commented on the Review of Internal Controls section, which stated,
“Specifically, the FMTV administrative contracting officer did not adhere to
contract provisions when conditionally accepting incomplete vehicles with
major nonconformances and paying the contractor up to 100 percent of the
contract price for the vehicles.” The Director stated that vehicles waiting for
first article approval did not have any noncompliances nor were they
incomplete. He recommended the sentence state, “Specifically the FMTV
administrative contracting officer did not adhere to contract provisions by
allowing the contractor to bill 100 % of the contract price for new FMTV
variants that were conditionally accepted while waiting First Article
approval.” The Acting Director stated that on August 16, 2007, the
administrative contracting officer sent a letter to the contractor’s Vice
President for Contracts and Supply Chain Management and the Vice
President of Finance and to all DCMA medium tactical vehicle contracting
personnel, as well as DCMA senior leadership, to preclude invoicing beyond
90 percent for vehicles waiting first article approval. The letter, “Contract
DAAE07-03-C-S023, Section E.8.2, entitled, ‘Conditional Acceptance Prior
to First Article Approval,’” repeated the exact language in the contract
directing the administrative contracting officer to withhold 10 percent on
vehicles conditionally accepted prior to first article approval.

Audit Response. The August 16, 2007, letter that DCMA sent to the
contractor is a positive measure to preclude the administrative contracting
officer from exceeding the 90-percent payment limitation for vehicles
conditionally accepted while awaiting completion of first article testing.
However, in addition to the administrative contracting officer actions for
vehicles awaiting the completion of first article testing, the procuring
contracting officer authorized the FMTV administrative contracting officer to
conditionally accept 466 vehicles with major nonconformances without
appropriate payment amounts being withheld. The Acting Director’s
suggested revision would omit reference to those vehicles. To clarify the
statement, we changed the sentence to read, “Specifically, the FMTV
administrative contracting officer did not adhere to contract provisions when:

       •   conditionally accepting vehicles that had not completed required
           first article testing; and

       •   paying the contractor up to 100 percent of the contract price for
           conditionally accepted vehicles that were authorized by the
           procuring contracting officer or authorized by the contract terms.”

Management Comments on the Charging Reinspection Costs to the
Contractor. The Acting Director commented on in the Review of Internal
Controls section, which stated, “Further, the Defense Contract Management
Agency (DCMA) administrative contracting officer just began charging the
contractor on December 29, 2006, for reinspection costs when the contractor
did not meet contract requirements for vehicle inspection acceptance.” He
suggested the sentence state, “On December 29, 2006, Defense Contract
Management Agency (DCMA) administrative contracting officer just began


                                  29
    charging the contractor for reinspection costs when the contractor failed to
    noticeably improve the vehicle lot inspection acceptance rate.”

    Audit Response. The goals of the memorandum of agreement defined
    acceptable levels of performance by the contractor as agreed to by DCMA
    and the Product Manager. As previously stated, the Contract System
    Specification Clause 4.4.1, “One Hundred Percent (100%) Final Inspection,”
    requires the contractor to present goods for final inspection that conform to
    contract specifications. Accordingly, the contractor was not meeting the
    requirements of Contract System Specification Clause 4.4.1 nor the
    acceptable rate established in the memorandum of agreement for acceptance
    of vehicles at first Government inspection. As a result, we did not revise the
    report.


Management Comments on Finding A and Audit Response
    The Acting Director, Defense Contract Management Agency and the Deputy
    Chief of Staff, TACOM Life Cycle Management Command commented on
    finding A statements on the use of the conditional acceptance clause, the
    contractor’s responsibility for conditionally accepted vehicles;
    nonconforming parts; and the types of conditional acceptance.

    Management Comments on the Use of the Conditional Acceptance
    Clause. The Deputy Chief of Staff commented on the “Contractor
    Responsibility for Conditionally Accepted Vehicles” paragraph, stating that
    he agreed that some vehicles were conditionally accepted for more than one
    reason but he believed that 1,900 was a typographical error.

    Audit Response. Based on supporting documentation, the total number of
    reasons that the Government conditionally accepted vehicles because of
    contractor responsibility was 1,900, as stated in the finding. To determine
    the number of reasons for vehicle conditional acceptance, the audit team
    reviewed listings of vehicles conditionally accepted from the Defense
    Contract Management Agency staff at Sealy, Texas. We identified from the
    lists the vehicle models and the reasons for conditional acceptance from
    January 30, 2004, through January 31, 2007. The Government conditionally
    accepted 1,745 vehicles in that timeframe. The Government conditionally
    accepted 155 of the 1,745 vehicles for more than one reason, totaling
    1,900 reasons for conditionally accepting the 1,745 vehicles.

    Management Comments on the Contractor’s Responsibility for
    Conditionally Accepted Vehicles. In the “Contractor Responsibility for
    Conditionally Accepted Vehicles” paragraph, the last sentence stated, “In
    acting on the contractor requests, the administrative contracting officer paid
    100 percent of the vehicle price for 656 of the 1,745 vehicles that were
    conditionally accepted.” The Acting Director recommended the sentence
    read:
           In acting on the contractor requests, the procuring contracting
           officer directed that 466 of the 656 out of the original 1,745
           vehicles be conditionally accepted and paid at 100 percent of the



                                          30
       vehicle price. The conditional acceptance of the remaining 190
       was authorized by the contract which also required that the
       contractor to bill no more than 90 percent of the vehicle price.
       The contractor billed and was paid 100 percent.

Audit Response. We modified the finding to meet the intent of the
suggested revision.

Management Comments on Nonconforming Parts. In the
“Nonconforming Parts” paragraph, the third sentence stated, “The
administrative contracting officer conditionally accepted 14 vehicles and did
not withhold payments from the contractor for the correction of the
nonconforming draglink.” The Director recommended the sentence state
“The procuring contracting officer authorized conditional acceptance of
14 vehicles but did not require a withhold.”

Audit Response. We modified the finding to meet the intent of the
suggested revision.

Management Comments on the Types of Conditional Acceptance. The
Acting Director commented on the first paragraph of the “Effects of Not
Withholding Payments” section, which stated:
       When the administrative contracting officer conditionally
       accepted vehicles and did not withhold payment, as required by
       the FAR, the contractor did not have the incentive to resolve the
       problems that led to the conditional acceptance. During the audit,
       the administrative contracting officer recognized the need to
       withhold payment on conditionally accepted supplies.
       Specifically, on October 23, 2006, the administrative contracting
       officer issued a letter to the contractor. The letter stated that the
       administrative contracting officer would withhold 10 percent of
       the payment for 106 vehicles that were previously conditionally
       accepted and paid in full. The amount to be recouped totaled
       approximately $2.2 million.        The administrative contracting
       officer planned to recover the money by deducting the amount
       from the contractor’s Performance-based payments.

The Acting Director stated that there are two distinct types of conditional
acceptance:
       Conditional acceptance prior to first article completion occurs
       when a new FMTV variant is designed and tested, prior to first
       article approval and before it is fielded, it is conditionally
       accepted with a 10 percent withhold as stated in the contract. Just
       like any other vehicle the Government accepts, these trucks do
       not have major noncompliances as they are inspected to the same
       final inspection criteria as all the other vehicles, the vehicles are
       just waiting for all testing to be complete and then have any
       changes that result from the testing be put on the trucks before the
       vehicles are fielded. At the time of the contract, this conditional
       acceptance was anticipated. All other conditional acceptance



                                       31
           actions happened during the period of performance of the
           contract. In all these cases, identified in the DODIG report, the
           procuring contracting officer sent a letter authorizing the
           administrative contracting officer to conditionally accept vehicles
           and identified the withhold amount if any. If there was a
           withhold required, it was taken.

    The Acting Director recommended the paragraph read:
           The administrative contracting officer conditionally accepted
           vehicles that had not received First Article approval but did not
           withhold payments as required by the contract. During the audit,
           the administrative contracting officer recognized the need to
           withhold payment on these vehicles. Specifically, on October 23,
           2006, the administrative contracting officer issued a letter to the
           contractor. The letter stated that the administrative contracting
           officer would withhold 10 percent of the payment for
           106 vehicles that were previously conditionally accepted and paid
           in full. The amount to be recouped totaled approximately
           $2.2 million. The administrative contracting officer planned to
           recover the money by deducting the amount from the contractor’s
           Performance-based payments.

    Audit Response. We modified the finding to meet the intent of the
    suggested revision.


Management Comments on Finding B and Audit Response
    The Acting Director, Defense Contract Management Agency commented on
    finding B statements on the contractor submission of vehicles for inspection;
    the first pass yield; actions to improve contractor performance; corrective
    actions; and charging reinspection costs.

    Management Comments on the Contractor Submission of Vehicles for
    Inspection. The Acting Director commented on the first sentence of the
    charge paragraph of finding B, which stated, “The FMTV contractor was
    submitting vehicle lots for Government acceptance that were not meeting
    first inspection acceptance requirements in the contract.” The Acting
    Director recommended the sentence read “The FMTV contractor was
    submitting vehicle lots for Government acceptance that were not meeting the
    Government’s first inspection acceptance goals in the memorandum of
    agreement established between the product manager and DCMA.”

    Audit Response. See our audit response to the Director’s comment on the
    memorandum of agreement on page 27 of this report.

    Management Comments on the First Pass Yield. The Acting Director
    commented on the sentence in the “Memorandum of Agreement” paragraph,
    which stated, “The first pass yield is to have 100 percent acceptance of
    vehicle lots presented during first inspection, as required by the contract
    system specification.” The Acting Director recommended the sentence read,
    “The first pass yield is to have 100 percent acceptance of vehicle lots


                                          32
presented during first inspection, a target goal as identified in the
memorandum of agreement between the product manager and DCMA.”

Audit Response. The goals of the memorandum of agreement define
acceptable levels of performance by the contractor as agreed to by DCMA
and the Product Manager. However, the Contract System Specification
Clause 4.4.1, “One Hundred Percent (100%) Final Inspection,” requires
100 percent of the goods presented by the contractor for final inspection to
conform to contract specifications. Accordingly, we did not revise the
report.

Management Comments on the Actions to Improve Contractor
Performance. The Acting Director commented on the sentence in the first
paragraph of the “DCMA Actions to Improve Contractor Performance,”
which states, “Although the contractor had not met the first pass yield
threshold since February 2005 and DCMA issued 285 level II corrective
action requests in 2006, DCMA did not charge the contractor required
reinspection costs until after we announced this audit in July 2006.” He
recommended the sentence read, “The contractor had not met the first pass
yield threshold since February 2005 and DCMA issued 285 level II
corrective action requests in 2006. As a result of a significant drop in first
pass yield in July 06, DCMA added consideration of reinspection charges
among many other actions taken to improve contractor performance.”

Audit Response. We agree that the contractor’s performance significantly
dropped in July 2006, but the contractor’s performance also significantly
dropped in January 2006. Accordingly, the finding correctly stated that
DCMA did not start charging the contractor reinspection costs until after we
announced the audit in July 2006 even though the contractor’s performance
deteriorated much earlier.

Management Comments on the DCMA Corrective Actions. Regarding
the “Conclusion” paragraph of finding B, the Acting Director stated that
DCMA began taking action to improve contractor quality well before the
audit. Accordingly, he recommended that the sentence that stated, “Also,
during the audit, DCMA began taking appropriate actions to get the
contractor to improve the quality of vehicle lots presented for final
inspection” be changed. He recommended that the sentence read “Also,
DCMA took several actions to get the contractor to improve the quality of
vehicle lots presented for final inspection.”

Audit Response. We added a sentence to the conclusion paragraph to give
DCMA credit for taking a number of actions to improve contractor
performance before the audit although those actions did not materially affect
contractor performance. We modified the sentence in question to state, “As a
result, during the audit, DCMA began charging the contractor reinspection
fees to encourage the contractor to present vehicle lots for final inspection
acceptance in conformance with contract system specifications
requirements.”




                                   33
Management Comments on the Charging Reinspection Costs. The
Acting Director stated that the “Conclusion” paragraph in finding B suggests
that DCMA was required to charge reinspection costs and had failed to do
that. He stated that FAR 52.246-2 “Inspection of Supplies–Fixed Price” does
not require DCMA to charge reinspection costs, it merely allows the
charging of reinspection costs at the discretion of the contracting officer.

Audit Response. We agree that the FAR does not require DCMA to charge
reinspection costs, but we do not agree that our paragraph implies it is a
requirement. We state that the FAR authorizes DCMA to charge
reinspection costs, which does not imply that it is a requirement.




                                 34
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget




                                       35
Congressional Committees and Subcommittees, Chairman
  and Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                    36
Defense Contract Management Agency
Comments




                    37
Final Report
 Reference




           *



           *




               *The attachment was omitted because of length. Copies will be provided upon request.


                                                                38
                                                                                       Final Report
                                                                                        Reference




                                                                                       *




*The attachment was omitted because of length. Copies will be provided upon request.



                                                 39
40
     Final Report
      Reference




     Page 15




     Page 16




     Page 17




     Page 18




41
Final Report
 Reference




    Page 19




    Revised




               42
     Final Report
      Reference




     Revised




     Revised




     Revised



     Page 12




43
Final Report
 Reference




          *




               *The attachment was omitted because of length. Copies will be provided upon request.



                                                                44
                                                                                       Final Report
                                                                                        Reference




                                                                                       *




                                                                                       Revised




                                                                                       Revised




*The attachment was omitted because of length. Copies will be provided upon request.



                                                 45
Department of the Army (Program Executive
Office for Combat Support and Combat Service
Support) Comments




                      46
47
Department of Army (TACOM Life Cycle
Management Command) Comments




                    48
     Final Report
      Reference




     Revised




49
50
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management produced this report. Personnel from the
Technical Assessment Directorate and Quantitative Methods Directorate,
Department of Defense Office of Inspector General, also contributed to the report.

Richard B. Jolliffe
Bruce A. Burton
John E. Meling
Kevin W. Klein
James A. Hoyt
Celia J. Harrigan
Tracey E. Dismukes
Roberta Dameron
Michael Y. Kwan
Chandra P. Sankhla
Jillisa H. Milner
